                            SOCIAL SECURITY
                            Office of the Inspector General

                                      May 28, 2010

The Honorable Sam Johnson
Ranking Member, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Johnson:

On January 12, 2010, you requested information regarding prison inmates affected by
both the Martinez settlement agreement and the No Social Security Benefits for
Prisoners Act of 2009.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure the Agency is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency. I have also sent a similar response to
Chairman Pomeroy, Ranking Member John Linder of the Subcommittee on Income
Security and Family Support, and Member Wally Herger of the Committee on Ways and
Means.

If you have additional questions, please call me, or have your staff contact Misha Kelly,
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Michael J. Astrue
Earl Pomeroy
John Linder
Wally Herger


            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
                            SOCIAL SECURITY
                            Office of the Inspector General

                                      May 28, 2010

The Honorable Earl Pomeroy
Chairman, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Chairman Pomeroy:

On January 12, 2010, you requested information regarding prison inmates affected by
both the Martinez settlement agreement and the No Social Security Benefits for
Prisoners Act of 2009.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure the Agency is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency. I have also sent a similar response to
Ranking Member Sam Johnson of the Subcommittee on Social Security, Ranking
Member John Linder of the Subcommittee on Income Security and Family Support, and
Member Wally Herger of the Committee on Ways and Means.

If you have additional questions, please call me, or have your staff contact Misha Kelly,
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Michael J. Astrue
Sam Johnson
John Linder
Wally Herger


            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
                            SOCIAL SECURITY
                            Office of the Inspector General

                                      May 28, 2010

The Honorable John Linder
Ranking Member, Subcommittee on
 Income Security and Family Support
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Linder:

On January 12, 2010, you requested information regarding prison inmates affected by
both the Martinez settlement agreement and the No Social Security Benefits for
Prisoners Act of 2009.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure the Agency is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency. I have also sent a similar response to
Chairman Earl Pomeroy and Ranking Member Sam Johnson of the Subcommittee on
Social Security, and Member Wally Herger of the Committee on Ways and Means.

If you have additional questions, please call me, or have your staff contact Misha Kelly,
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Michael J. Astrue
Earl Pomeroy
Sam Johnson
Wally Herger




            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
                            SOCIAL SECURITY
                            Office of the Inspector General

                                      May 28, 2010

The Honorable Wally Herger
Member, Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Herger:

On January 12, 2010, you requested information regarding prison inmates affected by
both the Martinez settlement agreement and the No Social Security Benefits for
Prisoners Act of 2009.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure the Agency is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency. I have also sent a similar response to
Chairman Earl Pomeroy and Ranking Member Sam Johnson of the Subcommittee on
Social Security, and Ranking Member John Linder of the Subcommittee on Income
Security and Family Support.

If you have additional questions, please call me, or have your staff contact Misha Kelly,
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Michael J. Astrue
Earl Pomeroy
Sam Johnson
John Linder




            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
  CONGRESSIONAL RESPONSE
         REPORT
Martinez Settlement Benefits Withheld
 Under the No Social Security Benefits
       for Prisoners Act of 2009
             A-01-10-20112




               May 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                         Background
OBJECTIVE
Our objective was to provide information on individuals not paid the Martinez settlement
payments under the No Social Security Benefits for Prisoners Act of 2009.

BACKGROUND
The Social Security Act prohibits the payment of Old-Age, Survivors and Disability
Insurance (OASDI) benefits and Supplemental Security Income (SSI) payments to
individuals who are “fleeing” to avoid prosecution, custody, or confinement for a
felony—and to individuals who are violating a condition of probation or parole—unless
the Agency determines that good cause exists for paying such benefits. 1

The Martinez class action suit challenged the Social Security Administration’s (SSA)
fugitive felon policy of denying or suspending benefits to individuals who had
outstanding felony warrants without developing information to ensure that they had
been “fleeing” law enforcement. The parties reached a settlement under which SSA
continued its policy only if an outstanding felony warrant was issued for one of three
National Crime Information Center Uniform Offense Class Codes:
     Escape (Offense Code 4901);
         Flight to avoid prosecution, confinement, etc. (Offense Code 4902); and
         Flight-Escape (Offense Code 4999).

Under the settlement agreement, SSA must abide by these rules prospectively. In
addition, SSA must apply the same rules and pay retroactive benefits to certain classes
of beneficiaries whose benefits were suspended or denied in the past. The Agency
planned to make Martinez payments in four phases. For Phase 1, SSA began sending
notices and issuing payments in December 2009.

SSA estimated in its Fiscal Year 2009 financial statements that the Martinez settlement
would cost the Agency about $693 million to restore benefits and/or eliminate
overpayments to fugitive felons. 2




1
 The Social Security Act §§ 202(x)(1)(A)(iv)-(v) and (B)(iii)-(iv), 42 U.S.C. §§ 402(x)(1)(A)(iv)-(v) and
(B)(iii)-(iv), as amended by § 203(a) of the Social Security Protection Act of 2004, Pub. L. No. 108-203
§ 203(a), March 2, 2004, and the Social Security Act §1611(e)(4), 42 U.S.C. § 1382(e)(4), as amended by
§ 203(b) of the Social Security Protection Act of 2004, Pub. L. No. 108-203 § 203(b), March 2, 2004.
2
    SSA, Fiscal Year 2009 Performance and Accountability Report, pages 106-107.


Martinez Settlement Benefits Withheld Under the No Social Security Benefits                            1
for Prisoners Act of 2009 (A-01-10-20112)
Further, the Office of the Inspector General’s (OIG) analysis of fugitive data showed that
only about 0.7 percent of fugitive felons have outstanding warrants with one of the three
Offense Codes cited in the Martinez settlement. Therefore, SSA will no longer save
millions of dollars in OASDI and SSI funds since most fugitive felons are now eligible to
receive benefits.3

The settlement agreement, however, does not restrict SSA or the OIG’s data-sharing
activities with law enforcement. Therefore, the OIG will continue to obtain data from law
enforcement agencies on fugitive felons wanted for all Offense Codes and match that
data with SSA’s records. Additionally, the OIG will share information in SSA’s records
regarding the fugitive’s location (that is, address information) with law enforcement so
that they can potentially arrest the fugitive.

In December 2009, the No Social Security Benefits for Prisoners Act of 2009 became
law. 4 Under this law, individuals who are not receiving monthly OASDI or SSI benefit
payments because they are prisoners, fugitive felons (under the Martinez definition), or
probation or parole violators will not be paid retroactive benefits—including those due
benefits under the Martinez settlement. Once the individual is no longer a prisoner,
fugitive felon, or probation or parole violator, he or she can receive the Martinez
settlement payment. (See Appendix B for additional background information on the
Martinez settlement and the No Social Security Benefits for Prisoners Act of 2009.)

On January 12, 2010, Sam Johnson, Ranking Member, Committee on Ways and
Means, Social Security Subcommittee; John Linder, Ranking Member, Committee on
Ways and Means, Income Security and Family Support Subcommittee; and Wally
Herger, Member, Committee on Ways and Means, requested information regarding
beneficiaries affected by both the Martinez settlement and the No Social Security
Benefits for Prisoners Act of 2009. Specifically, they requested statistical information
showing how many prison inmates—whose Martinez settlement-related payments SSA
withheld—were in prison because of fugitive felon warrants versus other crimes.




3
 We estimated that SSA saved about $83 million in SSI funds between August 1996 and February 2003
by stopping or recovering SSI payments to 32,979 fugitive felons and probation or parole violators. (SSA
OIG, Assessment of the Supplemental Security Income Fugitive Felon Project [A-01-03-23070],
September 2003). Additionally, we estimated SSA saved about $404 million in OASDI funds from
January 2005 through March 2008. (SSA OIG, Title II Benefits to Fugitive Felons and Probation or Parole
Violators [A-01-07-17039], July 2008).
4
    Pub. L. No. 111-115.


Martinez Settlement Benefits Withheld Under the No Social Security Benefits                            2
for Prisoners Act of 2009 (A-01-10-20112)
METHODOLOGY
In November 2009, SSA developed a population of 157 Phase 1 Martinez cases it could
not pay under the No Social Security Benefits for Prisoners Act of 2009 because the
individuals had potential prison addresses. The Agency finalized this population on or
about November 12, 2009 and provided us this file on January 26, 2010. We reviewed
these 157 cases. 5 (See Appendix C for our scope and methodology.)




5
    We did not independently identify this population but relied on the 157 cases SSA provided.

Martinez Settlement Benefits Withheld Under the No Social Security Benefits                       3
for Prisoners Act of 2009 (A-01-10-20112)
                                                     Results of Review
SSA provided us a file of 157 individuals not due retroactive Martinez settlement
benefits because they were incarcerated. Our review of these cases found that, as of
January 2010, SSA had withheld benefits to 80 individuals. Additionally, the Agency
correctly processed Martinez settlement payments totaling $553,835 for 76 individuals
and incorrectly paid 1 individual who was still incarcerated.

SSA DID NOT PROCESS MARTINEZ SETTLEMENT

As of January 2010, SSA had not processed the Martinez settlement payments for
80 individuals.

In 73 of the 80 cases, the individuals were incarcerated:

   21 were incarcerated because of the fugitive felon warrant. For example, one
    individual was issued a fugitive felon warrant in June 2005 for a sex offender
    registration violation. The warrant ended when the individual was apprehended and
    incarceration began in August 2007. These 21 individuals had warrants for crimes
    such as assault, kidnapping, larceny, and drug-related offenses. Table 1
    summarizes the type of offenses for which these individuals were issued their
    fugitive felon warrant.

                                          Table 1
                                                 Number of
                      Type of Offense                                Portion
                                                 Individuals
                Non-violent, not drug-related         9               43%
                Drug-related                          7               33%
                Violent                               5               24%
                Total                                21              100%

   50 were incarcerated because of some other crime. For example, one individual
    was issued a fugitive felon warrant in February 1999 for aggravated assault on a
    police officer. According to SSA’s prisoner records, this individual was charged with
    murder; therefore, it appeared the individual was incarcerated for a crime other than
    the fugitive felon warrant.

   2 were incarcerated for reasons we could not determine.




Martinez Settlement Benefits Withheld Under the No Social Security Benefits             4
for Prisoners Act of 2009 (A-01-10-20112)
In 7 of the 80 cases, the individual was no longer incarcerated:

   5 were not eligible to receive a Martinez settlement payment. For example, one
    individual had a potential Martinez settlement period from October 2008 through
    December 2009; however, this individual had a disability cessation effective in
    August 2007. Therefore, this individual was not eligible for a Martinez settlement.

   2 were eligible to receive a Martinez settlement payment; however, SSA withheld the
    benefit for other reasons. For example, one individual had an outstanding probation
    violation warrant. Once the probation violation warrant is satisfied, SSA will process
    the Martinez settlement.

SSA PROCESSED MARTINEZ SETTLEMENT

SSA processed Martinez settlements totaling $575,161 to 77 of these individuals.
Specifically, in

   76 cases, SSA correctly processed the Martinez settlement payments totaling
    $553,835. The Agency (a) paid the individuals who were no longer incarcerated,
    (b) withheld the settlement payment to collect an outstanding overpayment, or
    (c) canceled prior fugitive overpayments because they were no longer considered
    overpayments (subject to recovery action) under the settlement agreement. For
    example, according to SSA’s records, one individual was released from prison in
    August 2009. In January 2010, SSA processed this individual’s Martinez settlement
    payment, and he received a payment totaling $9,221.

   1 case, SSA incorrectly processed the Martinez settlement totaling $21,326. 6
    According to SSA, this individual was still incarcerated and should not have received
    a Martinez settlement.




6
 Of the $21,326, a payment of $10,652 was paid to the individual, and $10,674 was used to recover an
overpayment.

Martinez Settlement Benefits Withheld Under the No Social Security Benefits                            5
for Prisoners Act of 2009 (A-01-10-20112)
                                                                     Conclusion
As of January 2010, for the 157 individuals SSA identified as having potential prison
addresses, the Agency properly withheld Martinez settlement payments in 80 cases
pursuant to the No Social Security Benefits for Prisoners Act of 2009. Of these
80 individuals, 21 were incarcerated because of a fugitive felon warrant. Additionally,
the Agency correctly processed Martinez settlement payments totaling $553,835 for
76 individuals and incorrectly paid 1 individual who was still incarcerated.




Martinez Settlement Benefits Withheld Under the No Social Security Benefits               6
for Prisoners Act of 2009 (A-01-10-20112)
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Additional Background
APPENDIX C – Scope and Methodology




Martinez Settlement Benefits Withheld Under the No Social Security Benefits
for Prisoners Act of 2009 (A-01-10-20112)
                                                                              Appendix A

Acronyms

    OASDI               Old-Age, Survivors and Disability Insurance

    OIG                 Office of the Inspector General

    Pub. L. No.         Public Law Number

    SSA                 Social Security Administration

    SSI                 Supplemental Security Income




Martinez Settlement Benefits Withheld Under the No Social Security Benefits
for Prisoners Act of 2009 (A-01-10-20112)
                                                                              Appendix B

Additional Background
The Martinez Settlement Agreement and the No Social Security Benefits for
Prisoners Act of 2009

On September 24, 2009, the U.S. District Court of Northern California approved a
nationwide class action settlement agreement in the Martinez v. Astrue lawsuit involving
the Social Security Administration’s (SSA) fugitive felon program. The Martinez
settlement changed the types of felony arrest warrants SSA uses to prohibit payment of
Old-Age, Survivors and Disability Insurance (OASDI) benefits and Supplemental
Security Income (SSI) payments. The settlement does not apply to persons whose
benefits the Agency denied or stopped because of an arrest warrant for a parole or
probation violation. Specifically, the agreement allows SSA to stop benefit payments to
fugitive felons in only three Offense Code categories: 1
   Escape (4901);
   Flight to avoid prosecution, confinement, etc. (4902); and
   Flight-Escape (4999).

For Class Members whose benefits were suspended or denied, or had an administrative
appeal determination on or after January 1, 2007, or who had administrative appeals
challenging the suspension of their benefits pending on August 11, 2008, SSA will
reinstate benefits and pay any benefits withheld back to the first month of suspension.
The Agency will also repay any sums collected on an overpayment if these Class
Members had been overpaid benefits based on the previous policy. For Class
Members who receive SSI, the Agency will first redetermine the Class Member’s
non-medical eligibility criteria under its usual policies.

For Class Members whose benefits were suspended or denied between
January 1, 2000 and December 31, 2006, and who did not have administrative appeals
pending on August 11, 2008, SSA will stop collecting overpayments and will remove
any remaining overpayment balances imposed based on the previous policy. The
Agency will advise Class Members who were not receiving benefits as of April 1, 2009
because of the application of the previous fugitive felon policy, to make an appointment
to file a new application for benefits. Class Members whose benefits were suspended
or denied before January 1, 2000 may reapply under the new policy.




1
 The three Offense Codes specified—4901, 4902, and 4999—are National Crime Information Center
Uniform Offense Class Codes.

Martinez Settlement Benefits Withheld Under the No Social Security Benefits                     B-1
for Prisoners Act of 2009 (A-01-10-20112)
On December 15, 2009, the No Social Security Benefits for Prisoners Act of
2009 became law. 2 Under this law, individuals not receiving monthly OASDI or SSI
benefit payments because they are a prisoner, fugitive felon under the Martinez
definition, or probation or parole violator, will not be paid retroactive benefits. This
includes benefits due under the Martinez settlement. SSA can pay retroactive benefits
once the individual is no longer a prisoner, fugitive felon, or probation or parole violator.

The Agency planned to make Martinez-related retroactive payments in four phases.

     Phase 1: Individuals whose OASDI benefits were suspended after 2006. SSA
      began issuing these retroactive payments in December 2009.

     Phase 2: Individuals whose SSI payments were suspended or denied after 2006.
      The Agency plans to issue retroactive payments to these individuals between April
      and September 2010.

     Phase 3: Individuals whose OASDI benefits were suspended or denied between
      January 1, 2005 and December 31, 2006. The Agency plans to issue retroactive
      payments to these individuals between May and December 2010. For beneficiaries
      in this class, SSA will not pay benefits retroactively to the initial period of denial or
      suspension. Payments will extend only back to the protective filing date of
      April 1, 2009.

     Phase 4: Individuals whose SSI payments were suspended or denied between
      January 1, 2000 and December 31, 2006. The Agency plans to issue retroactive
      payments to these individuals between August and December 2010. For
      beneficiaries in this class, SSA will not pay benefits retroactively to the initial period
      of denial or suspension. Payments will extend only back to the protective filing date
      of April 1, 2009.

The new law did not limit SSA’s authority to otherwise withhold, adjust, or recover
benefits. 3 For individuals receiving SSI, the Agency will first re-examine non-medical
eligibility before reinstating payments.




2
    Pub. L. No. 111-115.
3
    Pub. L. No. 111-115 § 2, 42 U.S.C. 404(a)(1)(B)(iii), and 42 U.S.C. 1383(b)(7)(B).

Martinez Settlement Benefits Withheld Under the No Social Security Benefits                  B-2
for Prisoners Act of 2009 (A-01-10-20112)
                                                                              Appendix C

Scope and Methodology
To accomplish our objective, we:

   Researched the Social Security Administration’s (SSA) regulations, policies, and
    procedures related to the Martinez settlement and withholding of retroactive benefit
    payment under the No Social Security Benefits to Prisoners Act of 2009.

   Reviewed the Office of the Inspector General report, The Social Security
    Administration’s Fugitive Felon Program and the Martinez Settlement Agreement
    (A-01-09-29177), October 2009.

On January 26, 2010, SSA provided us a data file of 157 records. (We did not
independently identify this population but relied on the 157 cases SSA provided.) We
analyzed the available warrant and prison data for these individuals to determine
whether they were in prison because of the fugitive felon warrant that led them to be
included in the Martinez settlement.

We performed our review between January and March 2010 in Boston, Massachusetts.
We tested the data we used and determined them to be sufficiently reliable to meet our
objective. The entity reviewed was the Office of Income Security Programs under the
Deputy Commissioner for Retirement and Disability Policy. We conducted our review in
accordance with the Council of the Inspectors General on Integrity and Efficiency’s
Quality Standards for Inspections.




Martinez Settlement Benefits Withheld Under the No Social Security Benefits
for Prisoners Act of 2009 (A-01-10-20112)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
